OFFICE OF AUDIT
REGION 7
KANSAS CITY, KS




                Wichita, KS, Housing Authority

               Housing Choice Voucher Program




2012-KC-1005                                SEPTEMBER 19, 2012
                                                    U.S. DEPARTMENT OF
                                    HOUSING AND URBAN DEVELOPMENT
                                             OFFICE OF INSPECTOR GENERAL




                                                                    Issue Date: September 19, 2012

                                                                    Audit Report Number: 2012-KC-1005



TO:            Frances M. Cleary, Director, Kansas City Office of Public Housing, 7APH

               //signed//
FROM:          Ron Hosking, Regional Inspector General for Audit, 7AGA


SUBJECT:       The Wichita, KS, Housing Authority Did Not Always Properly Administer Its
                  Housing Choice Voucher Program


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of Wichita, KS, Housing Authority’s
Housing Choice Voucher program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

        If you have any questions or comments about this report, please do not hesitate to call me
at (913) 551-5872.




                                                Office of Audit Region 7
                                  400 State Avenue, Suite 501, Kansas City, KS 66101
                                      Phone (913) 551-5870, Fax (913) 551-5877
                           Visit the Office of Inspector General Website at www.hudoig.gov
                                           September 19, 2012
                                           The Wichita, KS, Housing Authority Did Not Always
                                           Properly Administer Its Housing Choice Voucher
                                           Program



Highlights
Audit Report 2012-KC-1005


 What We Audited and Why                    What We Found

We audited the Wichita, KS, Housing        The Authority did not always properly administer its
Authority’s Housing Choice Voucher         Housing Choice Voucher program. It oversubsidized
program. We selected the Authority for     30 of the 94 households reviewed and did not verify
review because it received more than       the use of additional bedrooms for medical or exercise
$12 million in Section 8 funding in both   equipment. Also, it did not accurately complete the
2011 and 2010. Also, it is one of the      tenant recertification form for 44 of the 94 households.
largest housing authorities in Kansas      This condition occurred because the Authority’s
and had not been reviewed by HUD           quality control reviews were inadequate and the
OIG. Our audit objective was to            Authority did not have a system to track and verify
determine whether the Authority            tenants who were approved for an additional bedroom
administered its Housing Choice            for medical or exercise equipment.
Voucher program in accordance with
applicable regulations.

 What We Recommend

We recommend that the Director of
HUD’s Kansas City Office of Public
Housing require the Authority to
reimburse its Housing Choice Voucher
program $67,269 from administrative
fee reserves. Also, HUD should ensure
that the Authority develops and
implements a more comprehensive
quality control program for its tenant
files to ensure that it complies with
HUD requirements and a process to
track and perform annual inspections of
households that receive an extra
bedroom for medical or exercise
equipment.
                           TABLE OF CONTENTS

Background and Objective                                                3

Results of Audit
      Finding 1: The Authority Did Not Always Properly Administer Its   4
      Housing Choice Voucher Program

Scope and Methodology                                                   7

Internal Controls                                                       9

Appendixes
A.    Schedule of Ineligible Costs                                      10
B.    Auditee Comments and OIG’s Evaluation                             11




                                            2
                       BACKGROUND AND OBJECTIVE
The Wichita Housing Authority began operations in 1969, and its mission is to promote adequate
and affordable housing, economic opportunity, and a suitable living environment free from
discrimination. The Authority is governed by the Wichita Housing Authority Board. The board
members include the Wichita City Council and one tenant member. The Housing and
Community Services Department manages the Authority’s daily operations. Its administrative
offices are located at 332 North Riverview, Wichita, KS.

The Housing Choice Voucher (Section 8) program is the Federal Government’s major program for
enabling very low-income families, the elderly, and the disabled to afford decent, safe, and sanitary
housing in the private market. Housing choice vouchers are administered locally by public
housing authorities, which receive Federal funds from the U.S. Department of Housing and Urban
Development (HUD) to administer the program. A family that is issued a housing choice voucher
is responsible for finding a suitable housing unit of the family’s choice for which the owner agrees
to rent the under the program. A housing subsidy is paid directly to the landlord by the Authority
on behalf of the participating family. The family then pays the difference between the rent charged
by the landlord and amount subsidized by the program.

The Authority received more than $12 million in Section 8 funding in both 2010 and 2011. In
addition, it provided housing choice vouchers to more than 2,370 households.

A housing authority is required to adopt a written administrative plan that establishes local policies
for program administration. The plan must conform to HUD regulations and state the Authority’s
policies in those areas in which the Authority has discretion to establish local policy. The
Authority must also establish subsidy standards for determining the number of bedrooms for
families of different sizes and compositions.

Housing authorities are ultimately responsible for ensuring that the right people receive the right
amount of subsidy, and they must maintain a high degree of accuracy in administering the
Housing Choice Voucher program. Nonetheless, errors, omissions, fraud, and abuse will occur,
and housing authorities must have preventive measures in place so that any irregularity can be
quickly detected and resolved as efficiently, professionally, and fairly as possible. The housing
authority must take immediate action to correct family payment and subsidy amount errors. In
cases in which the error or omission is the fault of the housing authority, the family and owner
are not responsible for the repayment. HUD does, however, expect the housing authority to
repay HUD the amount of overpaid subsidy due to its error or omission. The amount owed
must be paid out of administrative fee reserves.

The objective of our review was to determine whether the Authority administered its Housing
Choice Voucher program in accordance with applicable regulations.




                                                  3
                                                   
                                RESULTS OF AUDIT


Finding: The Authority Did Not Always Properly Administer Its
Housing Choice Voucher Program
The Authority did not always properly administer its Housing Choice Voucher program. It
oversubsidized 30 of the 94 households reviewed and did not verify the use of additional
bedrooms approved for medical or exercise equipment. Also, the Authority did not accurately
complete the tenant recertification form for 44 of the 94 households. This condition occurred
because the Authority’s quality control reviews were inadequate and the Authority did not have a
system to track and verify tenants who were approved for an additional bedroom for medical or
exercise equipment. As a result, more than $67,000 in excess subsidy payments was not
available for other households seeking Section 8 assistance.



 Oversubsidization Found in 30
 Households


              The Authority oversubsidized 30 of the 94 households reviewed. HUD’s Housing
              Choice Voucher Guidebook states that the administrative plan must describe the
              standards that will be used and when exceptions to the established subsidy
              standards may be granted. The Authority’s administrative plan established
              guidelines such as that children of the opposite sex, under the age of 5, will share
              a bedroom and children of the same sex will share a bedroom. The various
              categories of oversubsidization errors observed are displayed in the table below.

                     Oversubsidization errors                            Number
              Children under the age of 5 did not share                    12
                             a bedroom
              Children of the same sex did not share a                       5
                              bedroom
                     Family composition errors                               5
               Live-in aide was not identified on the                        3
                         form HUD-50058
               Single tenant given an extra bedroom                          3
                    without proper justification
               Children not listed on the form HUD-                          2
                               50058
                                Total                                        30




                                               4
                                                 
Medical and Exercise
Equipment Not Verified During
Annual Inspection Annual
Inspection

           The Authority did not verify medical or exercise equipment during the annual
           housing quality standards inspection for tenants who were approved for an
           additional bedroom for medical or exercise equipment. Office of Public and
           Indian Housing Notice PIH 2010-51 requires this annual inspection, and if the
           bedroom is not being used for the intended purpose, the housing authority must
           reduce the subsidy standard and corresponding payment standard at the family’s
           next annual recertification.

Reporting Errors Found in 44
Tenant Files


           The Authority did not accurately complete form HUD-50058 for 44 of the 94
           tenant files. We found reporting errors such as the inaccurate calculation of
           tenant subsidy, the number of bedrooms on the voucher not matching the payment
           standard, and incorrectly listing the child’s gender.

           According to Notices PIH 2011-65 and 2010-25, HUD relies on housing
           authorities to submit accurate, complete, and timely data to administer, monitor,
           and report on the management of its rental assistance programs. In addition,
           Notice PIH 2010-51 states that housing authorities are expected to ensure that
           data on the form HUD-50058 are correct when entered into the Public and Indian
           Housing Information Center system.

Inadequate Quality Control
Reviews and Tracking System

           The Authority’s quality control reviews were not adequate, and the Authority did
           not have a system in place to track and verify tenants who received an additional
           bedroom for medical or exercise equipment. Specifically, the Authority used a
           quality control checklist that was not comprehensive. In addition, a staff member
           performing the quality control reviews stated that they did not compare the
           payment standard with the actual family composition. Also, the Authority did not
           have a system to track and verify tenants who received an additional bedroom for
           medical or exercise equipment. The Authority was unable to identify the total
           number of households with medical or exercise equipment.

           As a result of our review, the Authority revised its administrative plan to
           strengthen its controls to help prevent households from receiving an extra
           bedroom without the proper justification. In addition, the Authority developed a

                                            5
                                             
           tracking system to help notify its staff to verify a household’s medical and
           exercise equipment in conjunction with the annual housing quality standards
           inspection. This tracking system should also help the Authority to track its live-in
           aides and individuals receiving an extra bedroom for other justifiable reasons.

More Than $67,000 in Excess
Subsidy Payments


           As a result of the Authority’s actions, more than $67,000 in excess subsidy
           payments was not available for other households seeking Section 8 assistance.
           The following table identifies the oversubsidization error and its total excess
           subsidy payment amount.

                   Oversubsidization errors                   Excess subsidy payment
            Children under the age of 5 did not share                 $20,827
                           a bedroom
            Children of the same sex did not share a                   $15,341
                            bedroom
                   Family composition errors                           $15,208
             Live-in aide was not identified on the                     $2,297
                       form HUD-50058
             Single tenant given an extra bedroom                       $1,560
                  without proper justification
             Children not listed on the form HUD-                      $12,036
                             50058
                             Total                                     $67,269


Recommendations

           We recommend that the Director of the HUD Kansas City Office of Public
           Housing

           1A.    Require the Authority to reimburse its Housing Choice Voucher program
                  $67,269 from administrative fee reserves.

           1B.    Ensure that the Authority develops and implements a more comprehensive
                  quality control program for its tenant files to ensure that it complies with
                  HUD requirements.

           1C.    Ensure that the Authority develops and implements a process to track and
                  perform annual inspections of households that receive an extra bedroom for
                  medical or exercise equipment.



                                             6
                                              
                         SCOPE AND METHODOLOGY

Our audit period was January 1, 2010, through February 29, 2012. We performed our onsite
work from March through June 2012 at the Authority’s offices located at 332 North Riverview,
Wichita, KS.

To accomplish our objectives, we

      Interviewed the Authority’s staff and tenants.
      Interviewed HUD’s Office of Public Housing staff in Kansas City, KS.
      Reviewed the Authority’s policies and procedures, tenant files, financial records, and
       supporting documentation.
      Reviewed Federal regulations and HUD requirements.

To perform our review, we used tenant data from HUD’s Public Housing Information Center
system. To determine whether the Authority granted units that were too large (oversubsidized),
we analyzed the data for 2,373 households contained in HUD’s system. We initially used the
data to help identify a sample of possible oversubsidized tenants within the Authority’s Section 8
program. By using data analysis techniques, we were able to identify 27 households that had a
calculated bedroom size and actual bedroom size smaller than the Section 8 voucher subsidy.
From this sample of 27 households, we selected 10 to review. We reviewed the 10 files to
determine whether the household was oversubsidized.

We later expanded our testing using data analysis techniques to identify instances in which
households in the Authority’s Section 8 program had payment standards greater than the number
of bedrooms based on family composition. We found 60 households with payment standards
greater than the number of rooms that we calculated based on family composition. We reviewed
all 60 files to determine whether the household was oversubsidized. Of these 60 households, 1
had been previously identified in our initial testing.

In addition, we completed a series of data analysis technique steps to identify households with a
live-in aide. Our work resulted in 25 instances in which the household indicated a live-in aide.
We reviewed the 25 files to determine whether they contained the proper medical documentation
to show a need for a live-in aide and whether the live-in aide’s data were properly documented
on the form HUD-50058 (Family Report).

For households that did not have adequate justification for an extra room for one or more
recertification periods, we determined the amount of overpaid housing subsidy based on data
found on the form HUD-50058 and the Authority’s housing assistance payment register.
Overall, we found that the housing assistance payment register data were sufficiently reliable for
the purposes of this audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate

                                                7
                                                  
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                8
                                                 
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over the administration of the Housing Choice Voucher program.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                     The Authority did not perform adequate quality control reviews.

                     The Authority did not have a system to track and verify tenants who received
                      an additional bedroom for medical or exercise equipment.




                                                 9
                                                   
                                  APPENDIXES

Appendix A

                SCHEDULE OF INELIGIBLE COSTS
               Recommendation                             Ineligible 1/
               number
                      1A                                    $67,269


    Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
    that the auditor believes are not allowable by law; contract; or Federal, State, or local
    policies or regulations.




                                           10
                                             
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         11
                           
Comment 1




            12
              
                         OIG Evaluation of Auditee Comments

Comment 1   According to our initial objectives, we performed testing on the Authority’s
            procurement and housing quality standards programs. However, we did not
            include these conclusions in our report since testing was limited.




                                            13
                                              
